HHS/OIG-Audit--"Review of Community Legal Aid Society, Inc., WilmingtonDelaware, (CIN:A-03-97-00514)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Community Legal Aid Society, Incorporated, Wilmington,
Delaware." (A-03-97-00514)
September 19, 1997
Complete
Text of Report is available in PDF format (1.71 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our review were to evaluate the Community Legal Aid Society, Incorporated (CLASI) financial management
practices and examine fiscal records and expenditures. The CLASI's financial management practices were generally not sufficient
to ensure that expenditures charged to the ADD and CMHS grants were allowable, allocable, and reasonable. Specifically,
the allocation method that was used to allocate these costs was inadequate because it did not use the actual number of
hours worked in the calculation. As a result, the financial status reports submitted to the ADD and CMHS were incorrect.
The CLASI's personnel activity reports were not signed by the individual employee or by the responsible supervisory official.
The CLASI also reported program income incorrectly and allocated unallowable costs relating to lobbying to the Federal
grants.